OFFICE OF INSPECTOR GENERAL



AUDIT OF SELECTED
USAID/BANGLADESH
POPULATION AND HEALTH
ACTIVITIES
AUDIT REPORT NO. 5-388-10-003-P
DECEMBER 11, 2009




MANILA, PHILIPPINES

Office of Inspector General


December 11, 2009

MEMORANDUM

TO:       	         USAID/Bangladesh Mission Director, Denise A. Rollins

FROM: 	             Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:	           Audit of Selected USAID/Bangladesh         Population   and   Health   Activities
                    (Audit Report No. 5-388-10-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft audit report and included the comments in their entirety
in appendix II.

The audit report contains one recommendation to assist the mission in improving various
aspects of the program. On the basis of information provided by the mission in response to the
draft report, we determined that a management decision has been reached on the
recommendation. A determination of final action will be made by the Audit Performance and
Compliance Division upon completion of the planned corrective action.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Pres. D. Macapagal Blvd., 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Finding ................................................................................................................... 5 


Were selected activities funded under 

USAID/Bangladesh’s population and health program 

achieving planned results, and what has been the impact? 


     Sustainability of the Franchise Program
     Is Uncertain ................................................................................................................. 7 


Evaluation of Management Comments ....................................................................... 10 


Appendix I – Scope and Methodology ........................................................................ 11 


Appendix II – Management Comments ....................................................................... 13 


Appendix III – Table 1: Performance Indicators and Achievement of Targets ...... 14 

SUMMARY OF RESULTS

Bangladesh is one of the most densely populated countries in the world, with a
population of approximately 145 million people. Almost half of this population lives
below the poverty line, which makes reduction of fertility, improved health outcomes, and
poverty alleviation pressing priorities for the Government of Bangladesh. However, the
public sector health system in the country is faced with problems, especially in the rural
areas. As a consequence, many people rely on nongovernmental organizations as the
main source of health care. These nongovernmental organizations have been providing
basic health services to a considerable proportion of the population. USAID has been
supporting these nongovernmental organizations over the past three decades. This
support has resulted in many nongovernmental organizations that have the requisite
technical and managerial skills to provide high-quality health services, but have limited
financial sustainability (see page 3).

To assist the Government of Bangladesh in providing sustainable health services, in
September 2007 USAID/Bangladesh awarded a 4-year $46.5 million contract to
Chemonics International, Inc. (contractor), to implement the Smiling Sun Franchise
Program (program). The program is to convert the existing network of nongovernmental
organizations into a viable franchise system with individual clinics to become
increasingly self-sustaining over the life of the program and to ensure their existence
after the program ends (see page 3). As of September 30, 2008, USAID/Bangladesh
had obligated $22.1 million and disbursed $8.2 million for the health activities of the
franchise program. Of the $8.2 million disbursed, $6.3 million was in grants awarded to
29 nongovernmental organizations to provide maternal, child, and reproductive health
care services (see page 3).

The Regional Inspector General/Manila conducted this audit to determine whether
selected activities funded under USAID/Bangladesh's population and health program
were achieving planned results, and what the impact has been. The audit team
answered this question by reviewing the USAID assistance being provided under the
Smiling Sun Franchise program (see page 4).

The audit concluded that while it was premature to measure the impact of the franchise
program, it had generally achieved planned results by the end of its first year of
implementation. Of the nine performance indicators selected for review, five had
achieved or exceeded their targets, while four had partially achieved their targets.
However, even though the selected activities reviewed by the audit had generally
achieved planned results for the first year of the program, the audit concluded that it was
uncertain that the mission’s goal of a sustainable program that would not continue to rely
on USAID funding would be achieved by the end of the program (see page 5).

After the first year of implementation, the contractor reported that the program’s 319
clinics had achieved an average cost recovery rate of 32 percent as a group. The first-
year target was for the clinics to recover an average of 25 percent of their costs.
However, when viewed individually, 72 of the 319 clinics that belong to the program, or
approximately 23 percent, had not achieved the target. In addition, another 74 clinics,
those in the 25 to 28 percent cost recovery rate range, had barely achieved the target.
These clinics could also fall short of program targets as the targets are increased


                                                                                         1
annually over the life of the program (see page 7). Various reasons prevented some of
the clinics from meeting the target, including the failure of the contractor to develop a
Use of Program Income Plan. This plan was to define the use of program income as
well as how revenue was to be generated by the program clinics. As a result of this lack
of a formal plan, the planned annual increase in the sustainability target over the life of
the program, and other program challenges, the financial sustainability of the franchise
program looks uncertain (see page 8).

The audit is making one recommendation to assist USAID/Bangladesh and its
stakeholders in achieving the goal of a sustainable program that would not rely on
USAID funding by the end of the program. Specifically, the audit recommends that
USAID/Bangladesh require the contractor to develop a plan to ensure that the goal of
maintaining and expanding a financially sustainable network of franchise clinics is
achieved (see page 9).

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that a management decision has been reached on the
recommendation. The mission’s written comments on the draft report are included in their
entirety, without attachments, in appendix II (see page 13).




                                                                                         2
BACKGROUND 

With a population of about 145 million people living in approximately 144,000 square
kilometers of land, Bangladesh is one of the most densely populated countries in the
world. Almost half of this population lives below the poverty line, which makes reduction
of fertility, improved health outcomes, and poverty alleviation pressing priorities for the
Government of Bangladesh. However, the public sector health system in the country is
faced with problems, especially in the rural areas. As a consequence, many people rely
on nongovernmental organizations as the main source of health care.                  These
nongovernmental organizations have been providing basic health services to a
considerable section of the population, especially to those people with little or no
financial means to pay for health care services.

Over the past three decades, USAID has been supporting these nongovernmental
organizations. This support has resulted in many nongovernmental organizations that
have the requisite technical and organizational skills to provide high-quality health
services, but have limited financial sustainability. To address the issue of financial
sustainability, the focus of USAID/Bangladesh’s health strategy has moved to helping
nongovernmental organizations recover costs and develop more sustainable programs
while still providing health services to the poor. The mission’s health strategy aimed to
help these organizations accomplish the following goals:

   1.   Reduce unintended pregnancy and improve healthy reproductive behavior.
   2.   Improve child survival, health, and nutrition.
   3.   Improve maternal health and nutrition.
   4.   Reduce transmission and impact of HIV/AIDS.
   5.   Prevent and control infectious diseases.

To assist in this endeavor, the mission awarded a 4-year, $46.5 million contract to
Chemonics International, Inc. (contractor), to implement the Smiling Sun Franchise
Program (program) in September 2007. The program is intended to convert the existing
network of nongovernmental organizations into a viable franchise system with individual
clinics to become increasingly self-sustaining over the life of the program and to ensure
their existence even after the program ends. The program will also provide expanded
access to high-quality health services to those who do not have the financial means to
pay for the services. In addition, the program will help individual clinics generate
sufficient income to make them financially sustainable.

USAID/Bangladesh’s Office of Population, Health and Nutrition is responsible for
managing the franchise program. As of September 30, 2008, the mission had obligated
$22.1 million and disbursed $8.2 million. Of the $8.2 million disbursed, $6.3 million was
in grants awarded to 29 nongovernmental organizations to provide maternal, child, and
reproductive health care services. At the time of the audit, the 29 nongovernmental
organizations were managing 319 clinics as part of the franchise program.




                                                                                         3
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 annual audit plan to answer the following question:

   •	 Were selected activities funded under USAID/Bangladesh's population and
      health program achieving planned results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   4
AUDIT FINDING

The audit concluded that while it was premature to measure the impact of the program,
selected activities funded under USAID/Bangladesh’s population and health program
had generally achieved planned results by the end of its first year of implementation. Of
the nine performance indicators selected for review, five had achieved or exceeded their
targets, while four had partially achieved their targets (see appendix III for the list of
performance indicators and achievement of targets). For example, the program had a
target of 2,169 deliveries with a skilled birth attendant, and 2,470 such deliveries were
achieved—easily exceeding the program’s first-year target. Also, by the end of the first
year, the 319 clinics under the program had surpassed the program’s target of an
average cost recovery rate of 25 percent—achieving an average cost recovery rate of 32
percent. On the other hand, the program’s first-year target for treating child diarrhea
was 2.07 million treatments, and only 1.70 million were accomplished. However, even
though planned results had generally been achieved in the first year of the program, the
mission lacked assurance that one of the program’s main objectives—eliminating
program health clinics’ reliance on USAID funding—would be achieved by the fourth
year of program implementation.

The audit covered maternal, child, and reproductive health activities being implemented
under the Smiling Sun Franchise Program contract. Health care activities under the
program are provided by a network of nongovernmental organization clinics belonging to
the program. The program is to establish a mechanism for the clinics under the program
to recover more costs, achieve more operational efficiency, and increase client loads,
while still providing services to a segment of the poor population. Specifically, the
program’s main objective is to help clinics generate sufficient income to support
approximately 70 percent of their operational costs (or a 70 percent cost recovery rate)
by the end of the 4-year program contract. The remaining 30 percent is to come from
other sources, such as subsidies from the government and other donors.

In addition to confirming that reported results for the nine performance indicators had
generally been achieved by the end of the first year of the program, the audit made site
visits to 13 program clinics located around Bangladesh to confirm the clinics’ provision of
maternal, child, and reproductive health care services to local residents. Some of the
clinics even operated satellite clinics, which offered limited services on an outreach basis
at temporary locations in order to bring basic health care services to poor residents who
were not able to travel to the clinics’ regular locations. Below are two examples of the
clinics we visited.

•	 Clinic No. 284 – This clinic is located in the Doyaganj area of More, in the district of
   Dhaka. The clinic provides health services such as integrated management of
   childhood illness, antenatal and postnatal care, immunizations for pregnant and
   nonpregnant women, and family planning services. Aside from maternal health and
   family planning services, this clinic provides minor respiratory preventive and
   curative care, and also operates satellite clinics. In the first year of implementation of
   the franchise program, this clinic already had a cost recovery rate of 61 percent.




                                                                                           5
      Clinic No. 284 is located in the Doyaganj area of More, in the district of Dhaka.
      (OIG photograph, March 2009.)


•	 Clinic No. 77 – This clinic is located in Charavitta, in the district of Jessore. The
   clinic provides family planning services such as giving contraceptive injections,
   inserting intrauterine devices, and dispensing birth control pills and condoms. Aside
   from family planning services, this clinic provides maternal health services such as
   antenatal and postnatal care. The clinic also provides child health services to
   manage and treat cases of malnutrition and childhood diseases such as diarrhea,
   measles, and fever. In the first year of implementation of the franchise program, this
   clinic had a cost recovery rate of 32 percent—well above the 25 percent target for
   the first year.




     Clinic No. 77 is located in Charavitta, in the district of Jessore.
     (OIG photograph, March 2009.)




                                                                                          6
The program generally achieved most of its planned results—including the 25 percent
cost recovery target—during its first year of implementation. However, the mission lacks
assurance that one of the program’s main objectives—reducing the program’s health
clinics’ reliance on USAID funding for recurrent costs and making them financially
sustainable—will be achieved by the end of the program. This issue is discussed below.

Sustainability of the
Franchise Program
Is Uncertain

 Summary: Contrary to the purpose of the Smiling Sun Franchise Program as
 specified in the contract, the financial sustainability of the franchise program might not
 be achieved by the end of the program. Even though the program clinics on average
 had exceeded the 25 percent cost recovery target in the first year of the program,
 23 percent of the program’s clinics did not achieve that target, and achieving a 70
 percent target by program end appears to be unlikely. Various reasons caused these
 clinics not to meet the target and made it unlikely that the increasingly stringent targets
 of future years would be met. For example, the contractor did not develop a Use of
 Program Income Plan at the start of the program as required by the contract. This
 plan was to describe how the program would enhance the network of
 nongovernmental organizations’ clinics as well as present an overall plan to help the
 program achieve financial sustainability and to help clinics that could not achieve early
 program targets to meet the higher targets of future years. As a result, financial
 sustainability of the franchise program looks uncertain.

According to USAID/Bangladesh’s contract for the Smiling Sun Franchise Program, the
program was to maintain and expand the availability of sustainable nongovernmental
organization health services and products in a way that would reduce reliance on USAID
funding for recurrent costs. Furthermore, the program was to expand the availability of
key family planning and health products and services to the poor, and continue
achieving the population and health targets set by the Government of Bangladesh and
USAID. Most important, the program was to establish a mechanism for the clinics to
recover greater costs, achieve more operational efficiency, and increase client loads
while still providing services to a segment of the poor population. Specifically, by the
end of the 4-year program, the nongovernmental organizations running the clinics and
the clinics themselves were to continue to meet family planning and health targets
without depending on USAID for recurrent costs.

In addition, the contractor was to develop a Use of Program Income Plan to be approved
by USAID at the onset of the program. The program set a target of recovering
70 percent of clinic operating costs by the end of the program, with the remaining
30 percent coming from other sources such as subsidies from the host government and
other donors. The target for the first year of implementation was a recovery rate of
25 percent for the clinics as a whole.

Even though the contractor reported that the franchise program’s 319 clinics had
exceeded the target and achieved an average cost recovery rate of 32 percent during its
first year of implementation, it is uncertain that these clinics will reach the target of
recovering 70 percent of their costs by the end of the program. It is unlikely that this


                                                                                           7
target will be achieved for a number of reasons:

First, many individual clinics did not meet the first-year cost recovery target of 25 percent
and are not likely to meet the higher targets of future years. Specifically, the average
cost recovery rate of 32 percent achieved by the end of the first year of the program
masks a great deal of variation among the program clinics, in which 23 percent of the
program clinics did not meet the first-year target of 25 percent for cost recovery at all. In
other words, 72 of the 319 clinics in the program did not meet the first-year target. In
addition, another 23 percent of clinics just barely made the 25 percent target; these
clinics could find it a challenge to meet the higher targets of future years. Specifically,
74 of the 319 clinics had cost recovery rates in the 25 to 28 percent range. On the other
hand, other program clinics, such as the two clinics discussed earlier in the report, had
very high cost recovery rates to start with, thereby increasing the overall program
average.

Second, there was no specific overall plan to help clinics that could not achieve program
targets or had barely met program targets to meet the higher targets of future years.
These franchise clinics did not meet the first-year target of 25 percent cost recovery for
various reasons, including the lack of an overall plan that defines how program income
would be used and how increased revenues would be generated. The Smiling Sun
Franchise Program contract refers to this as a “Use of Program Income Plan,” which was
to have been developed at the start of the program and approved by the mission.
Basically, the plan was to describe how the program would enhance the network of
nongovernmental organizations’ franchise clinics. The plan also would provide initial
capital in addition to grants to the nongovernmental organizations managing the clinics
that would cover operational costs at a decreasing level of coverage over the life of the
contract. Since the plan was not developed, there was no overall financial plan to help
ensure that program clinics that were either unable to meet the first-year target or had
barely met the target would be able to meet the more stringent cost-recovery
requirements in future.

One USAID official explained that it had only recently been discovered that the
contractor had not submitted a Use of Program Income Plan as required by the contract.
He added that as of February 2009, the contractor had submitted a Use of Program
Income Plan that was currently being reviewed by the mission. However, at the time of
the audit, the mission was awaiting response from the contractor on several open issues
before it could approve the plan. The contractor admitted that it was an oversight on its
part that it had failed to submit such a plan, but added that it thought such a plan might
be unnecessary since grants to the individual nongovernmental organizations under the
program each contained a Use of Program Income Plan for those clinics that were
managed by that nongovernmental organization—and those individual plans had been
approved by USAID as part of the grant approval process.

Nevertheless, the audit concluded that the 29 individual plans developed by the local
Bangladesh nongovernmental organizations overseeing the program clinics should not
take the place of an overall plan that would direct how the program as a whole should
proceed, and how individual program clinics and the nongovernmental organizations
participating in the program should plan to meet sustainability goals. Without such
overall guidance, some clinics will continue to struggle, and it is uncertain that the 70
percent cost recovery rate will be met by the end of the program.



                                                                                           8
In addition, factors external to the program could make it difficult for the 70 percent cost
recovery target to be met by the end of the program. One of these external factors is the
willingness of clients to pay for services. Both USAID and contractor officials expressed
a concern about the ability of program clinics to increase revenues from client services
so as to be able to cover a greater percentage of program costs. For example, one
mission official feared that clients of the program clinics would be unwilling to pay for
services that had previously been provided by many of the program clinics for free. He
pointed out that to make the program work, program clinics will have to increasingly
cover their costs through revenue generated by client fees. However, prior to the
implementation of the franchise program, many of these clients had been receiving
health care services from the same clinics free of charge.

Furthermore, the franchise program faces competition from other health care
organizations that provide some services for free. For example, organizations such as
the Bangladesh Rural Advancement Committee (BRAC), a nongovernmental
organization based in Bangladesh that is not affiliated with the Smiling Sun Franchise
Program, and the Government of Bangladesh Office of Family Planning provide many
basic low-cost health services for free, especially to the poor. Moreover, BRAC does
house calls as well; and the Government of Bangladesh Office of Family Planning has its
own clinics in many parts of the country where the franchise clinics are also located.
Thus, the franchise program clinics risk losing revenue because many basic, low-cost
services are provided free of charge by these other entities, and therefore the program
clinics may end up performing higher-cost and more complicated medical procedures
that could raise their overall operating costs without proportionately increasing their
revenues.

While the franchise program is still in an early stage of implementation, it is important to
have a formal plan that will assist the individual clinics in achieving the objective of
expanding the availability of health services and products at these clinics. Such a plan
should include how to use program income and how the clinics can generate more
revenues to help individual clinics become more self sufficient. In this regard, this audit
makes the following recommendation.

   Recommendation 1.           We recommend that USAID/Bangladesh require
   Chemonics International, Inc. to develop and implement a USAID-approved Use
   of Program Income Plan that will assist the Smiling Sun Franchise Program to
   achieve the objective of maintaining and expanding a financially sustainable
   network of nongovernmental organizations’ franchise clinics. In addition, the plan
   should include procedures for handling competition from other health care
   organizations that provide some free health services and details as to how the
   nongovernmental organizations’ franchise clinics can generate more revenue to
   help individual clinics become more self sufficient.




                                                                                          9
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that a management decision has been reached on the
one recommendation in the report.

For recommendation 1, the mission agreed to require the contractor to develop and
implement a Use of Program Income Plan. The contractor has submitted a draft plan
and the mission intends to approve it by January 31, 2010. The mission will ensure that
the plan includes procedures for handling competition from other health care
organizations that provide some free health services, and details on how the
nongovernmental organization franchise clinics can generate more revenue to help
individual clinics become more self-sufficient.

Furthermore, in addition to the action to specifically address the recommendation, the
mission has initiated the process to conduct an Agency Contracted Audit of the Smiling
Sun Franchise Program Income for the first 2 years of the program. The mission expects
this audit to be completed by September 30, 2010.

As a result, the Office of Inspector General considers that a management decision has
been reached on the recommendation and a determination of final action will be made
by the Audit Performance and Compliance Division upon completion of the planned
corrective action to approve the Use of Program Income Plan.




                                                                                       10
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether selected activities funded under USAID/Bangladesh population and health
program were achieving planned results and what the impact has been.

We focused our audit on the activities of the Smiling Sun Franchise Program (program)
activities from October 2007 until September 30, 2008. USAID/Bangladesh is spending
$50.1 million to provide health activities, including maternal, child, and reproductive
health care services. Included in the $50.1 million is a 4-year, $46.5 million contract
between USAID/Bangladesh and Chemonics International, Inc. (contractor) awarded in
September 2007 to implement and provide technical assistance to the program. As of
September 30, 2008, USAID/Bangladesh had obligated $22.1 million and disbursed $8.2
million for the franchise program activities. Of the $8.2 million disbursed, $6.3 million
was in grants awarded to 29 nongovernmental organizations. We focused our audit on
this program because it accounts for most of the funding being provided under the
USAID/Bangladesh population and health program.

The audit was performed in Bangladesh from March 8 through March 24, 2009, and
covered program activities implemented by the contractor. Audit fieldwork was
conducted in the offices of USAID/Bangladesh and the contractor in Dhaka and also in
Jessore, Khulna, Chittagong, and Dhaka, where the audit team visited 13 clinics
managed by nine nongovernmental organizations.

In conducting this audit, we reviewed and assessed the significant internal controls used
by USAID/Bangladesh to monitor franchise program activities. The assessment
included controls related to whether the mission (1) conducted and documented site
visits to evaluate progress and monitor quality, (2) reviewed progress reports submitted
by the contractor, and (3) compared the contractor’s reported progress to planned
progress and the mission’s own evaluation of progress. Further, we determined whether
the mission prepared an assessment of its internal controls and reported it in its Federal
Managers’ Financial Integrity Act report for fiscal year 2008.

Methodology
To answer the audit objective, we reviewed (1) the contract between USAID/Bangladesh
and the contractor, including modifications to this contract, (2) the mission’s performance
management plan, (3) the contractor’s annual work plan, (4) quarterly progress and
financial reports, and (5) the mission’s Federal Managers’ Financial Integrity Act report
for fiscal year 2008. We also interviewed officials from USAID/Bangladesh and the
contractor, and from program clinic staff.



                                                                                        11
The contractor uses a combination of Excel/Access spreadsheets/database to track
progress on 19 indicators, of which we selected 9 for review because they directly
contribute to the main objectives of the contract. We compared the performance data
reported by Chemonics to USAID/Bangladesh in progress reports to the performance
data in the spreadsheets. To test the validity of the computer-processed data used to
answer the audit objective, including data reported by Chemonics, we traced data from
the documents maintained by the nongovernmental organizations at the clinic level to
the data maintained by the contractor in the database.

We conducted site visits to 13 clinics in Jessore, Khulna, Chittagong, and Dhaka to test
the reliability of reported performance data, examine the quality of outputs, and observe
how facilities were operated and maintained. During the site visits, we reviewed the
recording and maintenance of documents such as patient registers/admission cards,
daily cash receipt books, sales slips and corresponding bank deposit slips, and petty
cash logbooks. Further, we reviewed staffing files and visitor logbooks to check for
monitoring and evaluation activities as well as technical oversight from nongovernmental
organization home offices, the contractor, and mission staff. Finally, during the site
visits, we interviewed clinic staff to assess the quality of health services and the impact
of the program.

For each indicator selected for review, we established the following materiality threshold
criteria to measure progress made on the franchise program:

•	 The planned result would be achieved if the target number was met.

•	 The planned result would be partly achieved if at least 80 percent but less than 100
   percent of the target number was met.

•	 The planned result would not be achieved if less than 80 percent of the target
   number was met.




                                                                                        12
                                                                              APPENDIX II 




MANAGEMENT COMMENTS




MEMORANDUM

DATE:          November 30, 2009

TO:            Bruce N. Boyer, Regional Inspector General/Manila

FROM:          Carey N. Gordon, Acting Mission Director, USAID/Bangladesh /s/

SUBJECT:       Mission Response to Audit Recommendation No. 1 of Draft Audit of
               Selected USAID/Bangladesh Population and Health Activities
               Audit Report No. 6-388-10-XXX-P, dated October 30, 2009


USAID/Bangladesh fully agrees with audit recommendation No. 1 that
“USAID/Bangladesh require Chemonics International, Inc. to develop and implement a
USAID-approved Use of Program Income Plan that will assist the Smiling Sun Franchise
Program to achieve the objective of maintaining and expanding a financially sustainable
network of nongovernmental organizations’ franchise clinics. In addition, the plan should
include procedures for handling competition from other health care organizations which
provide some free health services and details as to how the nongovernmental
organizations’ franchise clinics can generate more revenues to assist the individual
clinics in becoming more self sufficient.”

USAID/Bangladesh has initiated corrective actions to address the above
recommendation as follows:

1. USAID/Bangladesh has initiated the process to conduct an Agency Initiated Audit of
the Smiling Sun Franchise Program Income for the first two years of the program, i.e., from
October 1, 2007 to December 31, 2009. We expect the audit to be completed by
September 30, 2010.

2. The contractor has submitted a draft Use of Program Income Plan currently under
review by USAID. USAID/Bangladesh will approve the Use of Program Income Plan for
the Smiling Sun Franchise Program for years 3 and 4 by January 31, 2010. We will
ensure that the Plan includes procedures for handling competition from other health care
organizations which provide some free health services and details on how the NGO
franchise clinics can generate more revenues to assist the individual clinics in becoming
more self-sufficient.




                                                                                         13

                                                                                     APPENDIX III


                                    Table 1 

                        Smiling Sun Franchise Program 

             Achievements of Selected Year 1 Performance Indicators 

                     October 2007 through September 2008 



                                                                     Year 1
                                                                                       Percent
No.                       Indicator                                      Audited
                                                            Target                    Achieved
                                                                         Results

      Couple-years protection in U.S. Government
 1    supported programs (in millions of couple-             0.97             1.24      128%
      years)

      Number of antenatal care visits by skilled
 2    providers from U.S. Government-assisted                1.19             .994       84%
      facilities (in millions of visits)


      Number of deliveries with a skilled birth attendant
 3    in U.S. Government-assisted programs
                                                             2,169        2,470         114%


      Number of cases of child pneumonia treated with
 4    antibiotics by trained facility or community health   169,664      144,582         85%
      workers in U.S. Government-supported programs


      Number of cases of child diarrhea treated in
 5    USAID-assisted programs (in millions)
                                                             2.07             1.70       82%


 6    Percent of cost recovery                               25%              32%       128%

 7    Percent of poor service contacts                       27%              27%       100%

      Percent of nongovernmental organizations
 8    complying with franchise standards
                                                             100%         100%          100%

 9    Total service contacts (in millions)                   29.5             27.2       92%




                                                                                           14 

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

             Tel: 202-712-1150 

             Fax: 202-216-3047 

            www.usaid.gov/oig
